   October 03, 2002




Information
Technology
Information Resource Management
at the Army Aviation and Missile
Command
(D-2003-002)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Information and Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
AMCOM                Army Aviation and Missile Command
CIO                  Chief Information Officer
         Office of the Inspector General of the Department of Defense
Report No. D-2003-002                                              October 3, 2002
  (Project No. D2001AL-0173)

                  Information Resource Management at the
                    Army Aviation and Missile Command

                               Executive Summary

Who Should Read This Report and Why? Chief Information Officers and others
who manage information technology resources within DoD should read this report
because the issues identified may be applicable across DoD.

Background. This audit was initiated in response to a Hotline allegation that the Army
Aviation and Missile Command (the Command) was not properly managing information
resources at the Redstone Arsenal, Huntsville, Alabama. The Command develops,
acquires, fields, and sustains aviation and missile systems for Army battlefield systems
and provides support services to more than 40 tenants co-located at the Redstone
Arsenal and the surrounding area. For FY 2001, the Command budget at the Redstone
Arsenal exceeded $7.1 billion, and identified costs for information technology were
estimated to be as much as $126 million.

Results. The Command was not effectively managing information resources at the
Redstone Arsenal. Although the Chief Information Officer was engaged in the
Command’s investment and architecture strategy, information technology purchases of
more than $1.5 million were not coordinated and deliverables did not meet software and
accreditation standards. The Command must allow the Chief Information Officer to
become more involved in the business decision processes of its organizations when they
acquire information technology. In addition, untrained personnel made quality
acceptance recommendations for more than $11.5 million in purchases; purchase card
holders made more than $1 million in unapproved acquisitions; and the Command did
not realize a potential $431,000 annual cost avoidance by combining modules of similar
systems. Management controls need to be put in place to ensure that personnel who
make quality acceptance recommendations for purchases receive training in basic
information technology concepts and to ensure that only approved cardholders acquire
information technology products and services. Further, the Command needs to reassess
the feasibility and cost effectiveness of combining similar system modules.

The Command’s management control evaluation for information management did not
include all resources at the Redstone Arsenal. Further, when a Chief Information
Officer-sponsored information technology study reported that the Command was not
following best practices, the Command chose not to report the material weaknesses or
the actions that it was taking to correct the weaknesses in its FY 2001 Annual Statement
of Assurance. The Command needs to evaluate all information management and
information technology functions of Redstone Arsenal and report actions to correct any
material weaknesses in its FY 2002 Statement of Assurance. For details of the audit
results and recommendations, see the Finding section of the report. For a discussion of
the allegation, see Appendix C.
Management Comments and Audit Response. The Chief of Staff, Army Materiel
Command, responding for the Commanding General, Army Aviation and Missile
Command, generally concurred with the recommendations. The Command will
develop a curriculum and provide training for evaluating the quality of information
technology purchases within 3 to 6 months. Also, the Command will develop an
automated system for managing information technology requirements and purchase card
transactions. Further, the Command believes that existing controls and the
comprehensive Information Management Master Plan that it developed in April 2002
will increase the Chief Information Officer’s involvement in information technology
initiatives. However, the Command stated that combining modules of similar systems
was not feasible or cost-effective. In addition, the Command stated that it only reports
management control weaknesses that it cannot readily correct in its statements of
assurance. Accordingly, after re-evaluating recommendations made in the FY 2001
information technology study, the Command will report weaknesses that cannot be
corrected. See the Finding section of the report for a discussion of management
comments and the Management Comments section for the complete text of the
comments.

The comments did not fully meet the intent of the recommendations. Existing controls
and the April 2002 Information Management Master Plan will not ensure that the Chief
Information Officer is involved in all information technology initiatives. The Master
Plan is a strategy only, and additional control guidance will be required to establish
procedures for reviews and evaluations by the Chief Information Officer. Also, the
Command’s decision and justifications for not combining modules of similar systems
were not documented and communicated to the involved Command organizations.
After the decision was made, an involved organization believed that the combination
was feasible. Further, the Command’s practice of selectively reporting management
control weaknesses in statements of assurance does not comply with Army guidance.
Information technology is a DoD high-risk area. Therefore, the FY 2001 information
technology study results should have been elevated to the Army Materiel Command.
Additionally, the Command did not provide an implementation date for its planned
requirements and purchase card transaction management system for information
technology. We request that the Army reconsider its position on the recommendations
and provide additional comments by December 3, 2002.




                                           ii
Table of Contents
Executive Summary                                                        i

Background                                                               1

Objectives                                                               1

Finding
     Managing Army Aviation and Missile Command Information Resources    2

Appendixes
     A. Scope and Methodology                                           11
          Management Control Program Review                             13
          Prior Coverage                                                13
     B. Mandatory Guidance                                              14
     C. Validation of Assertions Made in the Hotline Allegation         17
     D. Information Resource Management at Redstone Arsenal             19
     E. Report Distribution                                             21

Management Comments
     Department of the Army                                             23
Background
           We performed this audit in response to a Defense Hotline referral. The
           anonymous source alleged that the Army Aviation and Missile Command
           (AMCOM), located at the Redstone Arsenal, Huntsville, Alabama, was not
           properly managing information resources. The report discusses the quality of
           AMCOM information management and addresses the validity of the claims raised
           by the anonymous source. See Appendix C for details on the validation of
           assertions made in the Hotline Allegation.

           AMCOM develops, acquires, fields, and sustains aviation and missile systems to
           guarantee the readiness and technological superiority of Army battlefield
           systems. AMCOM Directorates and Centers implement that mission and
           provide support services to more than 40 tenants co-located at the Redstone
           Arsenal and the surrounding area. For FY 2001, the AMCOM budget at the
           Redstone Arsenal exceeded $7.1 billion. The AMCOM Corporate Information
           Center, under the direction of the Chief Information Officer (CIO), designs,
           develops, implements, and maintains all aspects of information management and
           technology at the Redstone Arsenal. For FY 2001, identified AMCOM costs
           for information technology were estimated to be as much as $126 million.

Objectives
           The audit evaluated the management of information resources at AMCOM.
           Specifically, the audit determined whether AMCOM was managing information
           resources in accordance with Office of Management and Budget and DoD
           guidance. Further, the audit was to determine whether AMCOM had
           reengineered its business processes in response to planned system deployments
           of the Army’s Wholesale Logistics Modernization Plan.1 However, after we
           announced our objective, we determined that AMCOM had not reengineered its
           business processes because applications for the Army Wholesale Logistics
           Modernization Plan had not been completed. Also, we reviewed the
           management control program related to the objectives. See Appendix A for a
           discussion of the audit scope and methodology and the review of the
           management control program.




1
    The Wholesale Logistics Modernization Plan is a 10-year, $680 million initiative that replaces the
    Army’s Command Commodity Standard System and Standard Depot System with commercial-off-the-
    shelf applications that are operated and maintained by the Computer Sciences Corporation.

                                                     1
           Managing Army Aviation and Missile
           Command Information Resources
           The AMCOM Chief Information Officer (CIO) was not effectively
           managing information resources because the Commanding General’s
           organizational elements and tenants at the Redstone Arsenal acquired
           information technology without engaging the CIO and the Corporate
           Information Center in their information management decisions. As a
           result, the Command allowed:

           •   personnel who had no information technology training to make
               quality review recommendations for the acceptance of more than
               $11.5 million in information technology deliverables during
               FY 2001;

           •   organizational elements and tenants to purchase more than
               $1.5 million for information technology products and services in
               FY 2001 without being reviewed by the Corporate Information
               Center;

           •   unapproved purchase card holders to obtain more than $1 million in
               information technology products during FY 2001;

           •   an uncertified and unaccredited hardware installation that resulted in
               a security breach;

           •   the purchase of a training module that did not comply with software
               standards for people with disabilities; and

           •   a potential annual cost avoidance opportunity, estimated to be as
               much as $431,000, to be missed by not combining the Automated
               Resource Management System and the Integrated Center Information
               System.

    Also, the AMCOM management control evaluation for information management
    did not include all resources managed and funded by organizational elements
    and tenants at the Redstone Arsenal. Further, when a CIO-sponsored
    information technology study reported that AMCOM was not following best
    practices for the information management and information technology functions,
    AMCOM chose not to report the material weaknesses cited in the study or the
    actions that it was taking to correct the weaknesses to the Army Materiel
    Command in its FY 2001 Annual Statement of Assurance.

Mandatory Guidance
    Office of Management and Budget and DoD guidance implement the Clinger-
    Cohen Act of 1996 by providing managers with policies and procedures for
    managing and safeguarding information resources and for evaluating

                                        2
        management controls. Further, Army and AMCOM regulations state that
        information must be managed as any other asset, with CIO involvement in
        decisions affecting information technology equipment, systems, software,
        services, or alternative solutions. Also, the General Accounting Office has
        identified the management of information technology investments as a high-risk
        area for the DoD. Appendix B describes the guidance relating to the
        management of information resources at the Redstone Arsenal.

Monitoring Information Management
        At AMCOM, the span of management control for the CIO does not extend
        beyond the Corporate Information Center. As a result, AMCOM organizations
        and tenants manage and fund mission-related information resources without
        engaging the CIO and the Corporate Information Center in their information
        technology decisions. Therefore, the CIO did not directly manage and control a
        significant portion of information technology funds. We estimated2 that about
        $44 million, or 35 percent, of the FY 2001 funds for information technology
        was not controlled by the CIO. Further, except for the Corporate Information
        Center, expenditures for information technology were included with
        expenditures for other mission activities and therefore were not fully
        identifiable. Appendix D demonstrates the extent of information technology
        resources maintained and controlled by AMCOM organizational elements and
        major tenant organizations.

Benchmark Study
        A benchmark study3 sponsored by the CIO concluded that AMCOM information
        resources were not being efficiently and effectively managed due to limited
        support from the Command’s senior management. The $99,916 study,
        conducted between June 2000 and March 2001, found the following conditions
        at AMCOM.
                 •   Multiple formal and informal information technology organizations
                     existed that operated outside the purview of the CIO-managed
                     Corporate Information Center.

                 •   Independent network and computer ownership resulted in chaotic and
                     inefficient support.

                 •   Systems were implemented without Corporate Information Center
                     input and, when migrated to the Center, would require support from
                     untrained personnel.


2
Estimate is based on discussions with personnel responsible for information resource management at
AMCOM and tenant organizations and reviews of information technology contracts.
3
 “U.S. Army Aviation and Missile Command Distributed Computing Environment (DCE) Benchmark
Study,” March 28, 2001, prepared for AMCOM by the Harris Corporation.

                                                  3
            •   Existing infrastructure support was inadequate with little hope of
                scaling up to meet future needs.

            •   The Corporate Information Center was unable to meet current
                demands due to resources being extended for other priorities.

            •   The Corporate Information Center was attempting to manage
                multiple generations of assets with limited staff and training.

            •   Help Desk assistance was inadequate for customer information
                technology support.

            •   Asset management did not allow efficient tracking and use of
                resources.
     In response to the study, AMCOM formed integrated process teams, chaired by
     the CIO, to systematically analyze and find solutions to the identified issues.
     The Business Information Management Planning Board drafted an Information
     Management Master Plan, and the Information Technology Team developed
     guidance for information technology best business practices and processes.

             Information Management Master Plan. The AMCOM Information
     Management Master Plan provides the Command with guidance for
     implementing information management goals and objectives. The document was
     a collaborative effort of all the AMCOM major organizational elements and
     placed the CIO at the top of the AMCOM information management chain.

             Best Business Practices. The Information Technology Team identified
     five business cases or areas of improvement. The most significant case
     addresses architecture for hardware and software, and processes that should be
     changed to achieve the standardization objective. The team planned to complete
     policies and procedures for implementation by July 2002. Further, the team
     will continually meet to discuss the identified business areas.

     Although AMCOM took actions as a result of the benchmark study,
     organizational elements and tenants at the Redstone Arsenal did not always
     engage the CIO and the Corporate Information Center in information
     management decisions.

Information Technology Acquisitions
     Our analysis of the assertions made in the Defense Hotline allegation (see
     Appendix C) showed that the Commanding General and the CIO had limited
     oversight of information products and services received by AMCOM
     organizational elements and tenants. As a result, personnel untrained in
     information technology made quality acceptance recommendations for
     deliverables received from the Information Mission Area Support Services
     Contract; organizations did not coordinate information technology requirements
     with the Corporate Information Center as required; purchase card holders made


                                         4
           unauthorized information technology acquisitions; deliverables did not conform
           to information technology and security standards; and AMCOM did not realize a
           potential recurring cost avoidance.

           Information Mission Area Support Services Contract. Technical acceptances
           of services obtained from the Information Mission Area Support Services
           Contract4 relied on evaluations made by technical monitors; however, not all
           monitors were trained in information technology. We determined that AMCOM
           did not provide 31 of the 48 assigned technical monitors with information
           technology training or guidance for evaluating the quality of deliverable
           services. As a result, in FY 2001, more than half the funds obligated for
           information support services were recommended for acceptance by personnel
           who had no formal training in information technology. Cumulatively, these
           contracted deliverables amounted to more than $11.5 million of the $23 million
           invested for information mission area support services.

           Coordination of Requirements. Contrary to AMCOM Regulation 25-4,
           “Information Management,” June 9, 1999, requirements for information
           services and products were not always coordinated with the CIO and the
           Corporate Information Center. AMCOM Regulation 25-4 requires CIO
           approval before organizational elements purchase information technology for
           business systems. Without that coordination, the CIO and the Corporate
           Information Center were unaware of the extent and the quality of information
           technology acquired by AMCOM organizational elements and tenants.

                  Aviation and Missile Research, Development and Engineering Center
           Contract. Information technology services obtained through the Aviation and
           Missile Research, Development, and Engineering Center Contract5 were not
           always reviewed by the CIO and the Corporate Information Center. Of eight
           orders for information technology services issued between March 2001 and
           November 2001, only one, valued at $19,995, was coordinated through the
           Corporate Information Center. Cumulatively, the seven orders that were not
           coordinated totaled more than $1.5 million. According to responsible
           personnel, coordination was not required for the information technology
           requirements within the Aviation and Missile Research, Development, and
           Engineering Center.
                  Purchase Card Acquisitions. Personnel with purchase card privileges
           obtained information technology products without prior approvals from the
           Deputy CIO. AMCOM Regulation 25-4 requires that cardholders receive
           annual authorizations to purchase information technology products. A
           comparison of FY 2001 information technology transactions to approvals
           showed that eight cardholders had purchased information technology products

4
    A 5-year, cost-plus-fixed-fee contract awarded to Nichols Colsat Information Management of Huntsville,
    Alabama, for automation, telecommunications, visual information, and records management services.
5
    A cost-reimbursable, $12.3 million no-fee contract awarded in March 2001 to the University of Alabama
    in Huntsville for system engineering and advanced weapon system and manufacturing technology
    support used by the Research, Development, and Engineering Center.

                                                     5
without obtaining prior authorizations. Our analysis of the transactions made by
seven of those cardholders, showed that:

       •   two cardholders had expired authorizations,

       •   two cardholders believed that authorizations to purchase information
           technology products extended to them when another person in their
           office had received approval, and

       •   three cardholders were unaware of the AMCOM requirement to
           obtain an approval to purchase information technology products.

Cumulatively, the eight cardholders made 332 transactions and acquired
information technology software, hardware, and services worth more than
$1 million in FY 2001. One cardholder made 177 purchases totaling more than
$589,000. We concluded that those purchases went undetected because
AMCOM had not implemented a management control procedure to screen
purchase card transactions for information technology software, hardware, and
services. Our analysis of credit card transactions was limited to identifying
those personnel who were using credit cards to purchase information technology
products and determining whether those personnel had obtained authorizations to
purchase information technology. We did not perform tests to determine
whether the credit card purchases were justified.

Army Regulation 380-19, “Information Systems Security,” February 27, 1998,
requires that automated information systems be certified and accredited for
information assurance before being deployed. Unaware of the requirement, the
Command Analysis Directorate used a purchase card to obtain a graphics writer
for $14,013 and connected it to the Redstone Arsenal campus area network. In
October 2001, an Army computer emergency response team outside the
Command found that the installed writer allowed an undetected intrusion to its
stored files. According to AMCOM security personnel, violations of the
campus area network may have occurred. Without a process for monitoring
purchase card transactions, security personnel were unaware of the presence of
the graphics writer until notified of the breach.
        Training Module. The Intelligence and Security Directorate acquired a
security awareness training module for $59,659 without allowing the Corporate
Information Center an opportunity to evaluate the contract. When the Corporate
Information Center reviewed the deliverable for compatibility with the campus
area network, the module had to be modified because it did not comply with
Federal standards for people with disabilities. According to Office of
Management and Budget Circular A-130, “ Management of Federal Information
Resources,” November 30, 2000, agencies must ensure that persons with
disabilities have reasonable access to information products.

Resource Management Systems. Similar information systems for managing
resources were operated, maintained, and continually upgraded at AMCOM. In
September 1998, a joint cost analysis team from the Research Development and
Engineering Center and the Corporate Information Center concluded that
AMCOM would avoid as much as $431,000 annually by combining modules
                                   6
     from their resource management systems. However, the Deputy Director of the
     Research Development and Engineering Center recommended delaying action
     pending further study. As of November 2001, the modules had not been
     combined. Further, AMCOM officials could not find documentation to show
     that additional study had resumed in response to the recommendation.

Management Control Evaluations and Reports
     Management control reviews and reports did not demonstrate that AMCOM had
     effectively managed risks for the information management function. Army
     Regulation 11-2, “Management Control,” August 1, 1994, requires
     commanders and managers to establish and maintain effective management
     controls, assess areas of risk, identify and correct weaknesses, and report
     weaknesses to the next higher level of command. In addition, Regulation 11-2
     requires managers to give high priority to weaknesses in identified high-risk
     areas. Also, Army Regulation 25-1, “Army Information Management,”
     February 15, 2000, provides a checklist to evaluate management controls for
     information management and information technology functions.

     The General Accounting Office has identified the management of information
     technology investments as a high-risk area for the DoD. AMCOM evaluated
     information system security in FY 1999 and found that insufficient funding
     delayed program implementation. In its FY 2000 and FY 2001 Statements of
     Assurance, AMCOM reported the delayed implementation as an uncorrected
     material weakness. However, when AMCOM evaluated management controls
     for information management and information technology in FY 2000, it limited
     its review to the Corporate Information Center, excluding information resources
     that were functionally managed and funded by other organizational elements and
     tenants. Further, when the CIO-sponsored benchmark study of information
     management found that AMCOM was not following information technology best
     practices, AMCOM chose not to report the material weaknesses cited in the
     study or the actions it was taking to correct these weaknesses to the Army
     Materiel Command in its FY 2001 Annual Statement of Assurance.

Summary
     At AMCOM, the mission function of collecting, storing, and reporting
     information extends beyond the Corporate Information Center. Although the
     CIO initiated actions to develop and implement a Command strategy for
     information management investments and architecture for hardware and
     software, the CIO and the Corporate Information Center were not always
     engaged in decisions affecting the acquisition and operation of information
     resources. Accordingly, the CIO and the Corporate Information Center must
     become involved in the business decision processes of AMCOM and tenant
     organizations to effectively manage and oversee their information technology
     resources.




                                        7
Management Comments on the Finding
    The Chief of Staff, Army Materiel Command stated that he considered the
    report’s finding and recommendations to be generally true throughout DoD and
    across many government agencies. Further, he believed that the new Army
    Knowledge Management directives will resolve reported issues.

Recommendations, Management Comments, and Audit
 Response
    We recommend that the Commanding General, Army Aviation and Missile
    Command:

           1. Provide technical monitors with training and guidance in the
    basic information technology concepts necessary to evaluate the
    acceptability of products and services obtained from the Information
    Mission Area Support Services Contract.

    Management Comments. The Chief of Staff, Army Materiel Command,
    responding for the Commanding General, Army Aviation and Missile
    Command, generally concurred with the recommendation. The Army Aviation
    and Missile Command plans to develop a curriculum and provide training for
    evaluating the quality of information technology services. The Command
    anticipates implementing the training within 3 to 6 months.

           2. Establish controls to ensure that the Army Aviation and Missile
    Command and tenant organizations engage the Chief Information Officer in
    business system acquisitions of information technology in accordance with
    Army Aviation and Missile Command Regulation 25-4, “Information
    Management.”

    Management Comments. The Chief of Staff, Army Materiel Command
    concurred with the intent of the recommendation. The Chief of Staff stated that
    the Army Aviation and Missile Command developed a comprehensive
    Information Management Master Plan in April 2002 to strengthen controls. The
    plan, in conjunction with existing procedures, will enable the Chief Information
    Officer to become more involved in reviews and evaluations of information
    technology initiatives.

    Audit Response. The comments are partially responsive. The Army Aviation
    and Missile Command continues to assume that the Chief Information Officer
    will review and evaluate all information technology initiatives as a result of its
    existing controls and the April 2002 Information Management Master Plan. The
    audit demonstrated that multiple information technology organizations exist
    outside the direct control of the Chief Information Officer. Further, the
    Information Management Master Plan is a strategy and not a business process
    procedure. Without additional control guidance, we believe that Command
    organizations will not always engage the Chief Information Officer in business
                                        8
decisions affecting information technology. Therefore, we request that the
Army reconsider its position on this recommendation and provide additional
comments in response to the final report.

       3. Screen purchase card transactions to ensure that information
technology products and services are acquired by approved cardholders.

Management Comments. The Chief of Staff, Army Materiel Command
concurred and stated that the Army Aviation and Missile Command is
developing an automated system that will manage information technology
requirements and purchase card transactions.

Audit Response. The planned action satisfies the intent of the recommendation.
However, the Army needs to provide a system completion date in response to
the final report.

      4. Reassess the identified annual cost avoidance opportunity of
combining the Automated Resource Management System and Integrated
Center Information System modules.

Management Comments. The Chief of Staff, Army Materiel Command
nonconcurred and stated that in September 1998 the Army Aviation and Missile
Command determined that the combination of system modules was not feasible
or cost-effective.

Audit Response. The Army Aviation and Missile Command could not provide
documentation supporting its decision not to combine the system modules.
Further, subsequent correspondence within the Command, dated January 8,
1999, stated that the combination was feasible and that a final decision had not
been made. Therefore, we request that the Army reconsider its position on this
recommendation and provide additional comments in response to the final
report.

       5. Report the actions taken to correct weaknesses in information
management and information technology best practices contained in the
“U.S. Army Aviation and Missile Command Distributed Computing
Environment (DCE) Benchmark Study” in the Aviation and Missile
Command FY 2002 Statement of Assurance and subsequent statements until
actions are completed.

Management Comments. The Chief of Staff, Army Materiel Command
concurred with the intent of the recommendation and stated that the Army
Aviation and Missile Command is reevaluating the recommendations made in
the Benchmark Study and that material weaknesses, which cannot be readily
corrected, will be reported through proper channels.

Audit Response. The comments are partially responsive. Because information
technology is recognized as a DoD high-risk area, the Army Aviation and
Missile Command should report the Benchmark Study results and the
subsequent actions taken to improve information technology business practices

                                    9
to the Army Materiel Command in its statements of assurance. Therefore, we
request that the Army provide additional comments in response to the final
report.

      6. Evaluate all Redstone Arsenal information management and
information technology functions and report any material weakness in the
Army Aviation and Missile Command FY 2002 Statement of Assurance.

Management Comments. The Chief of Staff, Army Materiel Command
concurred with the intent of the recommendation. He stated that the Chief
Information Officer at the Army Aviation and Missile Command has implemented
and improved many information management business processes to allow better
management controls and accountability of information technology resources. In
addition, the Army Aviation and Missile Command will continue to review
existing information technology processes and report material weaknesses that it
cannot correct.

Audit Response. The Army Aviation and Missile Command’s practice of
selectively reporting only weaknesses that it cannot correct in statements of
assurance is contrary to Army guidance. Army management control guidance
requires commanders and managers to keep superiors informed and to identify
and correct weaknesses in known high-risk areas. Therefore, we request that
the Army reconsider its position on this recommendation and provide additional
comments in response to the final report.




                                  10
Appendix A. Scope and Methodology
   We reviewed documentation dated from July 1997 through February 2002. To
   accomplish the audit objective we:
         • Interviewed officials and obtained documentation from the Office of
             the Army Director of Information Systems for Command, Control,
             Communications, and Intelligence; the Army Materiel Command; the
             Army Space and Missile Defense Command; the Program Executive
             Office Air and Missile Defense; the Program Executive Office
             Tactical Missiles; and AMCOM.
         • Reviewed the AMCOM Distributed Computing Environment
             Benchmark Study, March 2001.
         • Reviewed the cost analysis that addressed combining the Integrated
             Center Information System and the Automated Resource
             Management System as a single resource management system in
             support of AMCOM.

         •   Analyzed technical direction orders applicable to the AMCOM
             Information Mission Area Support Services Contract to determine
             requiring organizations and technical monitors responsible for
             accepting information technology deliverables totaling more than
             $22 million in FY 2001.

         •   Reviewed eight technical direction orders at a cumulative cost of
             more than $1.5 million for information technology services issued
             between March and November 2001 by the Aviation and Missile
             Research, Development, and Engineering Center.

         •   Reviewed the purchase of a $59,659 training module by the
             AMCOM Intelligence and Security Directorate.

         •   Reviewed the $14,012 purchase card acquisition for a graphics writer
             by the AMCOM Command Analysis Directorate.

         •   Reviewed the AMCOM Information Management Master Plan.

         •   Reviewed Program Budget Decision No. 704 “Financial
             Management Modernization Program.”

         •   Reviewed the AMCOM FY 2001 Obligations.

         •   Analyzed a $40 million listing of AMCOM FY 2001 credit card
             transactions to identify information technology purchases.

         •   Reviewed AMCOM Information System Security processes and
             procedures.


                                     11
       •   Evaluated the adequacy of management controls related to the
           management of information technology at AMCOM.

       •   Contacted Department of Army, Army Materiel Command, and
           officials responsible for the management of information resources
           and internal management controls at AMCOM. In addition, we
           contacted persons responsible for the acquisition of information
           resources at Redstone Arsenal including chief information officers
           from AMCOM and tenant organizations, contracting officer technical
           representatives, a contracting officer representative, technical
           monitors, budget analysts, and other AMCOM personnel who were
           involved with specific information technology acquisitions.

We conducted this audit from September 2001 through June 2002 in accordance
with generally accepted government auditing standards. Except for the
Corporate Information Center, AMCOM costs for acquiring, collecting, storing,
and reporting information were not readily identifiable because funds were
commingled with budgeted costs of other organizations and tenants. Therefore,
we relied on discussions with knowledgeable personnel and reviews of contracts
for estimating information technology costs.

Use of Computer-Processed Data. We relied on computer-processed data to
compare FY 2001 purchase card transactions for information technology to a list
of authorized cardholders. Because the scope of our review was limited to
identifying information technology transactions, we did not evaluate overall
controls for the Purchase Card Management System.

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the DoD. This report provides coverage
of the Information Security and Defense Systems Modernization high-risk areas
to include Information Management.




                                   12
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of AMCOM management controls for information resources at the
    Redstone Arsenal. Specifically, we reviewed controls for coordinating and
    overseeing information management plans and actions made by organizational
    elements and tenants. Further, we reviewed the self-evaluation applicable to
    those controls.

    Adequacy of the Management Controls. We identified material management
    control weaknesses as defined by DoD Instruction 5010.40. Controls for
    information management were not adequate to ensure that applied resources for
    acquiring information technology products were effectively and efficiently
    managed in accordance with Office of Management and Budget, DoD, and
    Army guidance. Implementation of the recommendations to provide
    information technology training and guidance to technical monitors, to comply
    with the requirement to engage the CIO in acquisitions of information
    technology, and to screen purchase card transactions should correct the
    weaknesses. A copy of the report will be sent to the senior official in charge of
    management controls for the Army Materiel Command and AMCOM.

    Adequacy of Management’s Self-Evaluation. AMCOM conducted self-
    evaluations by organizational element rather than functional area. As a result,
    when AMCOM performed its self-evaluation of management controls for
    information resources, the review was limited to the Corporate Information
    Center and excluded information resources managed and funded by other
    organizational elements and tenants. Further, when a benchmark study reported
    that AMCOM had not followed information management and information
    technology best practices, AMCOM did not consider the study results to be
    material and chose not to report them to the Army Materiel Command even
    though information management is a designated DoD high-risk area.

Prior Coverage
    During the last 5 years, no reports addressing the Management of Information
    Resources at AMCOM have been issued.




                                        13
Appendix B. Mandatory Guidance

Office of Management and Budget Guidance
     Office of Management and Budget Circular A-123. Office of Management
     and Budget Circular A-123, June 21, 1995, defines management controls as the
     organization, policies, and procedures used to reasonably ensure that:

            •   programs achieve their intended results;

            •   resources are used consistent with agency mission;
            •   programs and resources are protected from waste, fraud, and
                mismanagement;

            •   laws and regulations are followed; and

            •   reliable and timely information is obtained, maintained, reported, and
                used for decision making.

     The Circular explains that management controls guarantee neither the success of
     agency programs nor the absence of waste, fraud, and mismanagement, but they
     are a means of managing the risk associated with Federal programs and
     operations.

     Office of Management and Budget Circular A-130. Office of Management
     and Budget Circular A-130, “ Management of Federal Information Resources,”
     November 28, 2000, implements numerous public laws, including the Clinger-
     Cohen Act of 1996, that address the acquisition, management, and security of
     Federal information resources. The Circular defines information resources as
     both Government information and information technology. It states that CIOs
     must:

            •   participate actively in the development, implementation, and
                maintenance of strategic and operational plans,

            •   participate actively throughout the budget process in establishing
                priorities for agency information resources,

            •   advise the agency head on the design, development, and
                implementation of information resources,

            •   monitor and evaluate the performance of information resource
                investments and advise the agency head on whether to continue,
                modify, or terminate a program or project, and

            •   monitor compliance with guidance in the Circular.


                                         14
    In addition, the Circular requires Federal agencies to:

           •   Develop a well-trained corps of information resource professionals,

           •   Ensure that improvements to existing information systems and the
               development of planned information systems do not unnecessarily
               duplicate information technology capabilities, and

           •   Ensure that information technology is accessible to individuals with
               disabilities.

    Further, Appendix III requires Federal agencies to establish management
    controls to ensure adequate security for all information processed, transmitted,
    or stored in Federal automated information systems and to conduct periodic
    security reviews to determine the effectiveness of controls.

DoD Guidance
    DoD Directive 5010.38. DoD Directive 5010.38, “Management Control (MC)
    Program,” August 26, 1996, establishes the DoD program for management
    controls and implements Office of Management and Budget Circular A-123.

    DoD Directive 5200.28. DoD Directive 5200.28, “ Security Requirements for
    Automated Information Systems,” March 21, 1988, implements the security
    safeguard provisions of Office of Management and Budget Circular A-130.

    DoD Instruction 5200.40. DoD Instruction 5200.40, “DoD Information
    Technology Security Certification and Accreditation Process,” December 30,
    1997, implements DoD Directive 5200.28, assigns responsibilities, and
    prescribes procedures for certification and accreditation of automated
    information systems, networks, and sites.

Army Guidance
    Army Regulation 11-2. Army Regulation 11-2, “Management Control,”
    August 1, 1994, implements Office of Management and Budget and DoD
    Guidance for the management control process. It states that all commanders and
    managers have an inherent responsibility to establish and maintain effective
    management controls, assess areas of risk, identify and correct weaknesses,
    keep their superiors informed, and give high priority to weaknesses in identified
    high-risk areas. The Regulation requires the heads of major Army commands to
    sign an annual statement of assurance that accurately describes material
    weaknesses and planned corrective actions. Also, a material control weakness
    must warrant the attention of the next level of command and a corrected
    weakness does not preclude it from being reported at the next higher level.




                                        15
    Army Regulation 25-1, Army Information Management. Army
    Regulation 25-1, “Army Information Management” February 15, 2000,
    implements Office of Management and Budget and DoD Guidance for the
    management and security of information resources and information technology
    as applied to command and control systems, intelligence systems, business
    systems, and national security systems. The Regulation:

           •   States that, as a valuable resource, information must be managed as
               any other asset, such as funds, personnel, and equipment.

           •   Requires CIOs in Army subordinate organizations to provide
               management oversight for information technology investments and to
               serve as the senior information management official.
           •   Requires that all information systems be subjected to an established
               certification and accreditation process for verifying that information
               assurance is achieved and sustained.

           •   Provides a checklist to evaluate management controls for information
               management and information technology functions.

    Further, the Regulation states that information systems integration throughout an
    organization generally reaps efficiency dividends among functional areas.

    Army Regulation 380-19. Army Regulation 380-19, “Information Systems
    Security,” February 27, 1998, implements DoD Guidance governing
    information security. The Regulation requires that system administrators be
    trained in all aspects of information system security. Further, the Regulation
    requires that before operation, each automated information system be certified
    and accredited for security requirements and safeguards, and be approved by the
    information system security manager (or officer).

AMCOM Guidance
    AMCOM Regulation 25-4. AMCOM Regulation 25-4, “Information
    Management,” June 9, 1999, implements Army guidance for the management
    and security of information resources applicable to command and control,
    intelligence, business, and national security systems. The AMCOM Regulation
    requires CIO approval to purchase information technology products and services
    and prescribes the process that organizations and tenants must follow to
    coordinate their information technology purchases with the CIO. In addition,
    the Regulation requires purchase cardholders to obtain annual Deputy CIO
    authorization before purchasing information technology products.




                                        16
Appendix C. Validation of Assertions Made in
            the Hotline Allegation
An allegation made to the DoD Hotline by an anonymous source asserts that the Army
Aviation and Missile Command (AMCOM), located at the Redstone Arsenal, Huntsville,
Alabama, had mismanaged information resources. The following discussion summarizes
the assertions made in the allegation and addresses their validity.

Assertion 1. AMCOM allowed its Centers, Directorates, and tenants to acquire and
manage information technology resources without coordinating actions with the
Chief Information Officer (CIO) and the Corporate Information Center.
Response. The assertion was valid. The CIO and the Corporate Information Center
did not always review the information technology requirements that AMCOM
organizational elements and tenants subsequently acquired.

Assertion 2. AMCOM obtained information technology with untrained personnel.

Response. The assertion was valid. Technical monitors who had no information
technology training made quality assessment recommendations for deliverable products
received from the Information Mission Area Support Services Contract.

Assertion 3. AMCOM did not empower its CIO to select, control, and oversee
command and area-wide information technology investments and operations.

Response. The assertion was not valid. AMCOM Regulation 25-4, “Information
Management,” June 9, 1999, does empower the CIO. Although it does not specifically
state that the CIO manages information resources at the Redstone Arsenal, the
Regulation provides procedures that engage the CIO in the Command’s areawide
information management business processes.

Assertion 4. AMCOM acquired software applications that will be replaced in 2002
when the Army deploys the Wholesale Logistics Modernization Plan.

Response. The assertion was not valid. Business process applications for the
Wholesale Logistics Modernization Plan have not been completed, and AMCOM has
not reengineered its processes or acquired software that will be replaced when the
Army deploys the Plan’s applications.

Assertion 5. AMCOM purchased software applications that duplicated similar
business processes.

Response. This assertion was partially valid. AMCOM does operate and maintain
systems that augment similar functional processes in its organizational elements.
In 1998, a joint analysis team determined that an annual $431,000 cost avoidance would
result by combining modules of two resource management information systems.


                                         17
However, action was delayed pending results from further studies. As of November
2001, documentation could not be found indicating the resumption of additional studies.

Assertion 6. AMCOM did not comply with information security guidance.

Response. The assertion was valid. Acquiring a graphics writer in 1999 with a
purchase card, the Command Analysis Directorate connected it to the Redstone Arsenal
Campus Network without certifying that it complied with Federal Information
Processing and DoD implementing information assurance requirements.




                                          18
Appendix D. Information Resource Management
            at Redstone Arsenal
                                                                                                                 Information
                                                                                                                 Technology
                        Extent of System                                                                            Funds
 Organization             Involvement                   Assigned Staff               Types of Services          for FY 2001
 AMCOM              Operates and maintains the    265 information technology     Operates and maintains the     $82 million –
 Corporate          AMCOM Campus Area             professionals                  Redstone Arsenal Campus        Actual Costs
 Information        Network                                                      Area Network
 Center                                           Contracted personnel
                                                                                 Develops and sustains
                                                                                 functional applications

                                                                                 Provides technical support
                                                                                 to AMCOM organizations
                                                                                 and tenants

                                                                                 Maintains worldwide
                                                                                 network connections
 AMCOM              Local area network            22 procurement analysts        Network administration         Estimated to be
 Acquisition        servers with user access to   technicians and clerks                                        as much as
 Center             database programs                                                                           $350,000
                                                  Contracted personnel

 AMCOM              Local Area Network and        9 administrative personnel     Web software and database      Estimated to be
 Integrated         e-mail servers                                               applications development       as much as
 Materiel                                         2 logisticians                                                $3 million
 Management         Application servers to                                       New technology system
 Center             support its business          Contracted personnel           integration and support
                    functions
                                                                                 Help Desk support
                    5 servers for the Multi-
                    user Engineering Change
                    Proposal Automated
                    Review System
 AMCOM              Local Area Network and        Division focal points          Network operations             Estimated to be
 Research,          e-mail servers                                                                              as much as
 Development                                                                     Software development           $2 million
 and
 Engineering
 Center

 AMCOM              Connected to the Redstone     1 information technology       Network administration         Estimated to be
 Command            Arsenal Campus Area           specialist                                                    as much as
 Analysis           Network                                                      Software development           $73,000
 Directorate                                      Contracted personnel
                    Connected to a Defense
                    Information Systems
                    Agency mainframe
                    computer
 AMCOM              A local area network with     6 program specialists          Network Administration         Estimated to be
 Security           2 servers for accessing                                                                     as much as
 Assistance         DoD and Army mission          1 logistician                  Help Desk support              $490,000
 Management         applications.
 Directorate                                      1 management assistant

                                                  Contracted personnel


Source: Discussions with information technology points of contact within each Organizational Element or Tenant activity

                                                                   19
                                                                                                                  Information
                                                                                                                  Technology
                         Extent of System                                                                         Funds
 Organization              Involvement                    Assigned Staff                Types of Services         for FY 2001
 AMCOM              Redstone Arsenal Campus        2 security specialists           Information assurance         Identified
 Intelligence       Area Network.                                                                                 $60,000
                    Information assurance          Contracted personnel
 and Security
 Directorate        focal point for Redstone
                    Arsenal
 AMCOM              Local area network with        8 computer specialists           Network administration        Estimated to be
 Test,              18 to 20 servers                                                                              more than
                                                   3 data or information            Intranet hosting              $1.2 million
 Measurement,       3 Unix computers to            management specialists
 and Diagnostic     support mission databases
 Equipment                                         1 accounting specialist          Application development
 Activity           Intranet network with          1 administrative assistant
                    worldwide users
                                                   Contracted personnel

 AMCOM              Local area network and e-      1 systems management             Help Desk support             Identified
 Resource           mail servers                   analyst                                                        $5,250
 Management
                    Mission applications on a      Contracted personnel
 Directorate
                    mainframe computer at the
                    Defense Finance and
                    Accounting Service,
                    St. Louis
 Program            An enterprise network          13 people in various job         Network support               Identified $2.6
 Executive          linked to:                     series                                                         million
 Office for                                                                         System security
                    Local area networks            Contracted personnel
 Tactical
                    individually owned and
 Missiles and
                    operated by each program
 Smart
                    management office
 Munitions
                    The Redstone Arsenal
                    Campus Area Network for
                    worldwide connectivity
 Program            Wide area network and e-       1 person responsible for         Network support Intrusion     Estimated to be
 Executive          mail, database servers,        information technology           detection                     as much as
 Office for Air     security intrusion detection                                                                  $3.5 million.
 and Missile        devices, and applications      Contracted personnel             Reporting security
 Defense                                                                            certifications and
                    Communications services,                                        accreditation
                    automated data processing
                    maintenance, and internet                                       Policies, procedures, and
                    received from AMCOM                                             management controls
 Army Materiel      Local area network             50 computer specialists          Network support               Estimated to be
 Command                                                                                                          as much as
                    28 servers for mail,           6 information specialists        Technical support on          $27.6 million
 Logistics
                    database, and management                                        specific projects
 Support
                    applications                   20 additional people in
 Activity
                                                   various job series
                                                   Contracted personnel
 Deputy for         Redstone Arsenal Campus        2 persons responsible for        Staff and technical           Estimated to
 Systems            Area Network                   information technology           assistance                    more than $2.8
 Acquisition                                                                                                      million
                    Each program office            Contracted personnel
                    operated and maintained
                    its own hardware
                    Note: The Deputy for
                    Systems Acquisition was
                    disbanded in November
                    2001
Source: Discussions with information technology points of contact within each Organizational Element or Tenant activity

                                                                20
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications and Intelligence)

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Assistant Secretary of the Army (Financial Management and Comptroller)
Inspector General, Department of the Army
Auditor General, Department of the Army
Chief Information Officer, Department of the Army
Commander, Army Materiel Command
   Commander, Army Aviation and Missile Command

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                           21
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on Government
  Reform




                                           22
Department of the Army Comments




                    23
24
25
26
27
28
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector for Auditing of the
Department of Defense prepared this report. Personnel of the Office of the Inspector General of
the Department of Defense who contributed to the report are listed below.

Mary L. Ugone
Charles M. Santoni
David M. Wyte
Stephen J. Bressi
Robert R. Johnson
Leann A. Alwood
John R. Huddleston
Jacqueline N. Pugh
